MASTERCARD® APPLICATION AND
SOLICITATION DISCLOSURE
INTEREST RATES AND INTEREST CHARGES
Annual
Percentage Rate 6.99% to 21.00% when you open your Account, based on your creditworthiness. After that,
your APR will vary with the Prime Rate (see the “Variable Rate Information” paragraph in your
(APR) for
Agreement).
Purchases
APR for
Balance
Transfers

6.99% to 21.00% when you open your Account, based on your creditworthiness. These APRs will
vary with the Prime Rate (see the “Variable Rate Information” paragraph in your Agreement).

APR for Cash
Advances

9.49% to 21.00% when you open your Account, based on your creditworthiness. After that, your
APR will vary with the Prime Rate (see the “Variable Rate Information” paragraph in your
Agreement).

Penalty APR
and When It
Applies

21.00%. The Penalty APR will apply to your Account if you fail to make a payment within 60 days
of the date it is due.

How Long Will
the Penalty
APR Apply?

If your APR is increased for this reason, the Penalty APR may apply indefinitely at our sole
discretion.

How to Avoid
Paying Interest
on Purchases

Your minimum payment due date will be at least 25 days after the last date of each billing cycle.
We will not charge you interest on purchases if you pay your entire balance by the due date each
month. We will charge you interest on Cash Advances and/or Balance Transfers as soon as you
complete the transaction.

Minimum
Interest Charge

None.

For Credit Card
Tips from the
Consumer
Financial
Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the Web site
of the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore.
FEES

Annual Fees
Transaction
Fees

Penalty Fees

$0 to $69.
Balance Transfer
Cash Advance
Foreign
Transaction
Late Payment
Over-the-CreditLimit
Stop Payment/
Return Item

Greater of 2% of balance transfer amount or $5.
Greater of 2% of cash advance amount or $5.
1% of each transaction in U.S. dollars (see the “Foreign Transactions”
paragraph in your Agreement for more information).
$15.
$None.
$27.

2
$12.
None, except that additional MasterCard Business Cards after the first two
Additional Cards
Cards will incur a $12 fee.
PIN Replacement $5.
PIN Change
$3.
BALANCE & INTEREST RATE CALCULATIONS

Card Replacement
Other Fees

How We Will
Calculate Your
Balance

We will use the “average daily balance (including new purchases)” method to calculate your
balance. See the “How We Calculate Interest” paragraph in your Agreement for more information.

How We Will
Calculate Your
Interest Rate

Unless a promotional APR is in place, we will add a margin to the Prime Rate to determine your
variable APR (see the “Variable Rate Information” paragraph in your Agreement.) The margin for
purchases and balance transfers will be 3.74% to 17.75% based on your creditworthiness. The
margin for cash advances will be 6.24% to 20.25% based on your creditworthiness.
Rev. 12/4/14

